Navy Federal Credit Union® Credit Card Pricing Terms
The Credit Card Pricing Terms is part of your Credit Card Agreement and Disclosure.
It provides cost, fee, and other important information about your account.
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for Purchases, Balance Transfers, and
Convenience Checks

nRewards® Secured

5.99% to 18.00%
8.99% to 18.00%
9.65% to 18.00%
9.65% to 18.00%
9.99% to 18.00%
18.00%

Cash Advance APR

This APR will vary with the market based on the U.S. Prime Rate.
2% above your variable APR. This APR will vary with the market based on the U.S. Prime Rate.

Platinum
®

GO REWARDS
cashRewards

Navy Federal More Rewards American Express® Card
Visa Signature® Flagship Rewards

Penalty APR and When It Applies

18.00%
This APR may apply to your account if you:
• are over 60 days past due or
• make a payment that is returned and causes your account to be
over 60 days past due.
How long will the Penalty APR apply? If your APRs are increased for either
of these reasons, the Penalty APR will apply until you make six consecutive
minimum payments when due.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not
charge you interest on purchases if you pay your entire balance by the due date
each month. We will begin charging interest on Cash Advances, Balance Transfers,
and Convenience Checks on the transaction date.

Minimum Interest Charge

None

For Credit Card Tips From the Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Fees
• nRewards Secured, Platinum, cashRewards, GO REWARDS,
Navy Federal More Rewards American Express® Card
• Visa Signature Flagship Rewards1

• None
• $49.00

Transaction Fees
• ATM Cash Advance

• None if performed at a Navy Federal branch or ATM. Otherwise, $0.50 per
domestic transaction or $1.00 per foreign transaction.

• Foreign Transaction

• None

Penalty Fees
Late Payment2
Returned Payment

• Up to $20.00
• Up to $20.00

How We Will Calculate Your Balance: We use a method called “average daily balance (including new transactions).” See your account agreement for more details.
Loss of Introductory APR: You may lose your Introductory APR if the Penalty APR applies to your account.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account agreement.
Variable Rate Information: Your Standard APR will vary based on the U.S. Prime Rate. This means your APR could increase if the U.S. Prime Rate increases or decrease if the
U.S. Prime Rate decreases. An increase or decrease in your APR will affect the total amount of interest you pay. Your APR is adjusted monthly on the first business day of the
month; it is determined by adding a Margin to the U.S. Prime Rate published in the Wall Street Journal on the first day of the previous month. Your Margin is a percentage
amount that we determine based on an evaluation of your credit history. Your Margin will range from 2.74% to 16.74% based on product type.
Monthly Periodic Rate Information: Your account is charged interest monthly using a periodic rate. The monthly periodic rate for your Standard APR for Purchases, Balance
Transfers, and Convenience Checks (if requested) is 0.4992% - 1.5000%. The monthly periodic rate for your Cash Advance APR is 0.6658% - 1.5000%. The monthly periodic
rate for your Penalty APR is 1.5000%.
1

Annual Fees: If you have been issued a Visa Signature Flagship Rewards Card, you will be billed the annual membership fee. This charge will appear on your first statement,
and annually thereafter. Only one fee will be charged to your account regardless of the number of cards issued on the account.

2

Late Payment Fee: You will be required to pay a late payment fee of up to $20.00 if you do not pay at least the minimum payment by the payment due date on your statement.
Navy Federal may also assess the late payment fee every month thereafter that you are past due.

Other Fee: Returned convenience check fee—$20.00.
The Navy Federal More Rewards American Express® Card is issued and administered by Navy Federal Credit Union. American Express is a federally registered service mark of
American Express and is used by the issuer pursuant to a license.

© 2020 Navy Federal NFCU 573CC (7-20)

page 1 of 3

Your Agreement With Us. This Credit Card Agreement and Disclosure (“Agreement”) is your contract with us.
The Credit Card Pricing Terms is part of this Agreement and provides cost, fee, and other important information
about your account. Provisions of this Agreement are severable. If any provision of this Agreement is held by a
court of law to be invalid or unenforceable, the rest of this Agreement will not be affected. Virginia law will be
used to interpret this Agreement unless federal law applies.
As used in this Agreement, the word “you” means each and every person signing, using, or having a credit card
account with Navy Federal Credit Union, referred to as “we,” “us,” or “Navy Federal.”
Please read all of this Agreement carefully and keep it for your records. By using your credit card account, you
agree to all the terms of this Agreement.
1. Contacting Us. All correspondence to us relating to this Agreement should be addressed to Navy Federal
Credit Union, P.O. Box 3501, Merrifield, VA 22119-3501. You may also contact us electronically through online
banking at navyfederal.org or call us toll-free in the U.S. at 1-888-842-6328. For toll-free numbers when
overseas, visit navyfederal.org. Use 1-703-255-8837 for collect international calls. Information concerning
Navy Federal Credit Cards may be obtained at navyfederal.org.
2. Cardholder Signature. Your card is not valid unless it is signed. Sign the back of your card immediately
upon its receipt.
3. Your Credit Limit and the Maximum Amount You Owe Navy Federal. The maximum amount you may
owe us at any time is the amount of your assigned credit limit, any overlimit amount and any interest and fees
that have accrued. Transactions you make may either cause your account balance to exceed your credit limit or
increase an existing over limit amount. When this happens, it does not mean your credit limit has been increased.
If you exceed your credit limit for any reason at any time, you remain responsible for payment of all charges,
including any fees and any amount over the credit limit. You may apply for an increase to your credit limit through
our mobile app, online at navyfederal.org, by telephone, or by mailing a completed credit card application form
to us. (Refer to the Contacting Us section of this Agreement.) A request for additional credit may involve a credit
bureau inquiry to review your consumer credit report. We reserve the right to determine your credit and/or cash
line and may increase, decrease, or restrict it at any time.
4. Promise to Pay. You agree to pay us the amount of all purchases and cash advances that you, your joint
cardholder, and Authorized User(s) make using your credit card or any other access device. You agree to pay the
total of any interest charges and other charges or fees due on your account. The joint cardholder also promises
to pay all amounts owed to us. If you allow another person to use your credit card, you are responsible for paying
for their purchases and cash advances.
5. For purposes of this section, “you” does not mean Authorized Users of credit card accounts.
a. Security Interest Specific for Credit Cards. You acknowledge and pledge, specifically as a
condition of your use of the credit card, that you have voluntarily granted Navy Federal a
security interest in all of your individual and joint share accounts at Navy Federal. If your credit
card loan becomes delinquent, this security interest may be used without further notice to
pay all or part of such delinquency. This security interest does not apply to shares in an
Individual Retirement Account (IRA).
b. Statutory Lien. You acknowledge and pledge to Navy Federal a statutory lien in your shares and dividends
on deposit in all joint and individual accounts and any monies held by Navy Federal now and in the future, to
the extent of any loan made and any charges payable. The statutory lien does not apply to shares in any IRA.
c. Additional Security Interest. You acknowledge and pledge to Navy Federal a security interest in the
collateral securing loan(s) that you have with Navy Federal now and in the future, including any type of change
or increase, and any proceeds from the sale of such collateral and of insurance thereon, not to exceed the
unpaid balance of the loan. This security interest in collateral securing other loans does not apply to loan(s) on
your primary residence.
6. Payments.
a. Payment Instructions. Payments may be made by mail, by electronic transfer, or at a branch in person. All
payments must be made in U.S. dollars. Payments you mail must be addressed to Navy Federal, P.O. Box 3500,
Merrifield, VA 22119-3500. Payments we receive by mail at this address by 5:00 pm will be credited the same
day. In some cases, available credit may be delayed until the payment is verified. Mailed payments to your credit
card account may not be commingled with funds designated for credit to other Navy Federal accounts. We will
accept late or partial payments without forfeiting any of Navy Federal’s rights under this Agreement. Payments
that are marked “paid in full” and that are of an amount less than the balance on the credit card account, or that
are marked with any other restrictive endorsements, should be sent to P.O. Box 3105, Merrifield, VA 22116,
Attn. Credit Card Division.
b. Minimum Payment Due. Your monthly statement will tell you: the total amount that you owe us; the
minimum payment that you must make; and your payment due date. Your minimum payment will include any
amount past due plus the greater of: (1) 2% of the new balance or (2) $20.00. If the new balance of your account
is less than $20.00, the minimum payment will be the amount of the new balance.
You may pay the new balance in whole or in part at any time. We will not charge you a penalty for paying more
than the minimum payment.
c. Payment Allocation. In general, we will apply your minimum payment to interest and fees first before
applying it to principal balances. If your account has balances with different APRs, we will apply the minimum
payment first to the balance with the lowest APR before balances with higher APRs. Any payment amount in
excess of the minimum payment will be allocated to the balance with the highest APR and any remaining portion
to the other balances in descending order based on the APR.
7. Transactions Made in Foreign Currency.
Visa®. All Visa purchases and cash advances will be billed to you in U.S. dollars. The rate of exchange used for
processing international transactions is a rate selected by Visa from the range of rates available in wholesale
currency markets for the applicable central processing date and may vary from the rate Visa itself receives, or
the government-mandated rate in effect for the applicable central processing date.
Mastercard®. All Mastercard purchases and cash advances will be billed to you in U.S. dollars. Currently, the
rate of exchange used is either a government-mandated rate or a wholesale rate determined by Mastercard
International for the processing cycle in which the transaction is processed. This rate of exchange may differ from
the rate that would have been used on the purchase date or cardholder statement posting date.
American Express®. All American Express purchases and cash advances will be billed to you in U.S. dollars.
Purchases and cash advances in a foreign currency will be converted to U.S. dollars. The rate of exchange used
for processing international transactions is a rate selected by American Express.
8. Annual Percentage Rates (APRs) and Interest Charges.
a. APRs. Your account is assigned APRs for purchases, balance transfers, convenience checks, and cash
advances. These APRs are used to calculate your interest charges. See the Credit Card Pricing Terms for the
APRs that apply to your account transactions.
b. Variable APR. Unless noted otherwise, your APR will vary based on the U.S. Prime Rate published in the
Wall Street Journal. This means your APR will increase if the U.S. Prime Rate increases and decrease if the
U.S. Prime Rate decreases. An increase or decrease in the APR will increase or decrease the total amount of
interest you pay. Therefore, the amount of your minimum payment applied to interest will increase or decrease.
Your APR for purchases, balance transfers, and convenience checks, if you request them, is your “Standard
APR.” Your Standard APR is adjusted monthly on the first business day of the month; it is determined by adding
a Margin to the U.S. Prime Rate published in the Wall Street Journal on the first day of the previous month.
The Margin is a percentage amount that we determine based on an evaluation of your credit history. Your Margin
for your Standard APR may be found in the Variable Rate Information paragraph under the Credit Card Pricing
Terms table. Your cash advance APR is 2.00% higher than your Standard APR, not to exceed the maximum
permitted by law. For example: If the U.S. Prime Rate is 4.00% and your Margin is 9.00%, then your variable
© 2020 Navy Federal NFCU 573CC (7-20)

APR for purchases, balance transfers, and convenience checks will be 13.00% APR (4.00% U.S. Prime Rate +
9.00% Margin = 13.00% APR). Your APR for cash advances will be 15.00% APR (4.00% U.S. Prime Rate +
9.00% Margin + 2.00% cash advance added rate = 15.00% APR).
c. Promotional APRs. If your account is eligible for one or more introductory promotional APRs, the Credit Card
Pricing Terms sets forth the APR amount, its duration, and the corresponding Standard APR and cash advance APR
applicable to your account at the time it is opened. If a promotional rate is offered after your account is opened, the
terms applicable to that promotional APR will be provided at that time. After the promotional APR expires, the remaining
balance incurred under the promotion will be subject to your Standard APR or cash advance APR, as applicable.
d. Penalty APR. If you do not make your minimum payment by the due date and your account is over 60 days
past due or you make a payment that is returned and causes your account to be over 60 days past due, your
account will be subject to the Penalty APR. The Penalty APR will be applied to any and all transactions and
outstanding balances on your account, including those with Promotional APRs. The Penalty APR will be effective
at least 45 days after your account becomes subject to it.
e. How We Calculate Your Interest Charges. To calculate your interest charges, Navy Federal uses your
periodic rate, which is determined by dividing your APR by 12. Navy Federal then calculates monthly interest
charges on your account by applying the periodic rate to the average daily balance of your account, including
current transactions. To calculate the average daily balance, we take the beginning balance of your account
each day, add any new purchases and cash advances, and subtract any payments, credits, and unpaid interest
charges. The resulting total is the daily balance. We then add together all the daily balances for the billing cycle
and divide the total by the number of days in the billing cycle. This amount is your average daily balance.
9. Lost or Stolen Cards, Account Numbers, or Checks—Liability for Unauthorized Use. If you notice
the loss or theft of your credit card or possible unauthorized use of your card account, you should write to us or
call us immediately at the address or telephone number included in the Contacting Us section of this Agreement.
You may also contact us on the web at navyfederal.org. You will not be responsible for charges made to your
account that are found by us to be unauthorized.
10. Consumer Reporting Agencies. Navy Federal may report information about your credit card account
to consumer reporting agencies. Late payments, missed payments, or other defaults on your account may be
reflected in your credit report. Information may be reported in your name and your Authorized Users’ names,
if any. We may also access your consumer credit report for any permissible purpose under the Fair Credit
Reporting Act, including periodic reviews of your creditworthiness, collections, and future credit line increases
or decreases, and to display your credit score within your online banking and mobile access.
11. Default. We may close your account or require immediate repayment of your total account balance, to the
extent allowed by law, if any of the default events occur:
• You violate any terms of this Agreement;
• You do not pay the amount due as listed on your monthly statement;
• You have a returned payment that causes your account to be delinquent;
• You default under another account agreement you have with us;
• You file bankruptcy, or some other insolvency proceeding is filed by or against you;
• You are declared incompetent, mentally incapacitated, or in the event of your death;
• We determine that there has been a substantial adverse impact on your ability to repay the balance on this account;
• We determine that you have engaged in suspicious, fraudulent, illegal, dishonest, or deceptive activities with
respect to any of your Navy Federal accounts; or
• If the amount of deposited funds held as security on your share secured card (if you have one) is insufficient.
If we require immediate repayment of your total account balance, we may also declare due and payable all costs
relating to the collection of your account, including, but not limited to, unassessed interest charges, court costs,
expenses, and attorney fees.
Navy Federal may obtain any information it deems necessary to cure or collect the default amount, including
your current contact information, as permitted by law. Contact to your employer will be limited to obtaining
current contact information.
You may have a Penalty APR applied to your account under certain circumstances. Refer to the Annual
Percentage Rates (APRs) and Interest Charges section of this Agreement for more information.
12. Closing or Suspending Your Account. We may, without notice or demand, close your account or suspend
your account by denying use of the credit line. You may close your account with us at any time. To do so, call
or write to us using the contact information in the Contacting Us section of this Agreement. You may close your
account without being charged any fees up until the time you use the account or make a payment on the account
after receiving a billing statement. If we close or suspend your account, or if you close your account, you must
pay us all amounts you owe on the account, even if they post to your account after it is closed or suspended.
We may cancel your current card and issue you a substitute card at any time. Every card issued by Navy Federal
is the property of Navy Federal.
13. How We May Contact You. You expressly agree that to service your account or to collect any amounts you
may owe us, we or authorized parties may call you and send text messages to you. We may use prerecorded/
artificial voice messages or an automatic dialing device to contact you at any telephone number associated with
your account, including mobile telephone numbers, which could result in charges to you. You also expressly
consent that we may send email messages regarding your account to your email address. In addition, we may
send you communications related to your account through the U.S. mail or other mail service.
You agree to notify us promptly of any changes to your contact information, including your name, mailing
address, telephone number(s), and email address(es).
14. Use of Card for Illegal or Risky Transactions. It is your responsibility to comply with all laws when using
your Navy Federal Credit Card. You agree to hold us harmless for any damages or other liability arising from
a transaction initiated by you or your Authorized User, if any, for the purpose of conducting an illegal activity.
We reserve the right to decline authorization of transactions for activities we believe may violate law or pose
significant risk to us or our members.
15. Your Billing Rights: Keep This Document for Future Use. This notice tells you about your rights and
our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the address provided in the Contacting Us section
of this Agreement or at navyfederal.org. In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and
why you believe it is a mistake.
You must contact us:
• within 60 days after the error appeared on your statement.
• at least 3 business days before an automated payment is scheduled, if you want to stop payment on the
amount you think is wrong.

page 2 of 3

You must notify us of any potential errors in writing or electronically. You may call us, but if you do, we are not
required to investigate any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1) Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if
we have already corrected the error.
2) Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the
bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that account.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or other fees related
to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable
interest and fees. We will send you a statement of the amount you owe and the date payment is due. We
may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us telling us that you
still refuse to pay within one complete billing cycle. If you do so, we cannot report you as delinquent
without also reporting that you are questioning your bill. We must tell you the name of anyone to whom
we reported you as delinquent, and we must let those organizations know when the matter has been
settled between us. If we do not follow all of the rules above, you do not have to pay the first $50 of the
amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have
tried in good faith to correct the problem with the merchant, you may have the right not to pay the remaining
amount due on the purchase.
To use this right, all of the following must be true:
1) The purchase must have been made in your home state within 100 miles of your current mailing address, and
the purchase price must have been more than $50. (Note: Neither of these are necessary if your purchase was
based on an advertisement we mailed to you, or if we own the company that sold you the goods or services.)

Spend Limits. You have the ability to limit the amount of your credit line an Authorized User can access by
adjusting their Spend Limit. To adjust your Authorized User’s Spend Limit, contact us by telephone or access
the Manage Card Holder's Limits feature through our online banking service.
Authorized Users can:
•

make transactions, including purchases, balance transfers, and cash advances on your account;

•

report their own card lost or stolen;

•

initiate billing disputes;

•

make payments;

•

obtain certain account information such as transaction history;

•

request they be removed from the account as an Authorized User;

•

change the billing address for your account; and

•

request a credit balance refund.

Navy Federal may, from time to time and without notice, modify what Authorized Users can do.
19. Amendment to This Agreement and Changes to Benefits.
a. Amendments. Navy Federal may amend and change this Agreement, including rates, by providing an
advance written notice of the changes to you when required by law. However, we may reduce charges, fees,
and rates without sending you an advance notice.
b. Changing Benefits. Credit card benefits offered as part of your credit card account–such as rewards,
services, and other features–may be modified or discontinued at any time for any reason. Separate terms and
conditions apply to these and other benefits associated with your credit card account.
20. Military Lending Act Protections. Under the Military Lending Act, the following statement applies to
covered borrowers (Active Duty servicemembers and their dependents) with accounts established on or after
October 3, 2017:
Federal law provides important protections to members of the Armed Forces and their dependents relating to
extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and
his or her dependent may not exceed an annual percentage rate of 36 percent. This rate must include, as
applicable to the credit transaction or account: The costs associated with credit insurance premiums; fees for
ancillary products sold in connection with the credit transaction; any application fee charged (other than certain
application fees for specified credit transactions or accounts); and any participation fee charged (other than
certain participation fees for a credit card account).
If you would like to hear the statement above and/or hear your credit card account payment obligation
communicated to you orally, please call 1-800-667-9596.

2) You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or
with a check that accesses your credit card account do not qualify.
3) You must not have yet fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing or
electronically at the address provided in the Contacting Us section of this Agreement or at navyfederal.org.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our
investigation, we will tell you our decision. At that point, if we think you owe an amount and you do not pay, we
may report you as delinquent.
16. Notice Concerning Use of an Automatic Teller Machine (ATM). Be alert. Do not use the ATM if the
lights are not in operation or you see suspicious activity. Take someone with you if you must make a transaction
at night. If you sense someone attempting to view your transaction, cancel the transaction and leave. Remember
to take your card, cash, and receipt and put them away. Count your money only when you are safely away from
the ATM area. Immediately report all crimes to the operator of the ATM and to local law enforcement officials.
17. Fees. The following fee information is in addition to the fee information found in the Credit Card Pricing Terms.
a. Annual Fees. If you have been issued a Visa Signature Flagship Rewards Card, you will be billed the annual
membership fee. This charge will appear on your first statement, and annually thereafter. Only one fee will be
charged to your account regardless of the number of cards issued on the account. If you do not want to pay the
annual fee, you may request that your account be closed any time prior to the last day of the anniversary month
when the account was opened. Upon closing your account, your annual fee for the period will be credited back
to your account and reflected on your next statement. To make this request, you may contact us at the phone
numbers, website, or address provided in the Contacting Us section of this Agreement.
b. Late Payment Fee. You may be required to pay a late payment fee of up to $20.00 if you do not pay at
least the minimum payment by the payment due date on your statement. Navy Federal may also assess the late
payment fee every month thereafter that you are past due.
c. How Fees Are Categorized. Fees are categorized as purchases on your periodic statement and are included in
your purchases balance. Fees are not eligible for promotional rates unless otherwise stated in your promotional offer.
18. Authorized Users.

Adding an Authorized User. You or a joint owner may request to add Authorized Users to your account, subject
to a maximum number set by Navy Federal. You may make the request by phone, in writing, or at navyfederal.org
using the information provided in the Contacting Us section of this Agreement. You are responsible for obtaining
permission from each Authorized User before naming him or her as an Authorized User on your account. We will
need the following information for each requested Authorized User:
• Full name as it should appear on the card
• Date of birth
• Social Security Number
• Address
• Telephone Number
• Access Number if a Navy Federal Member
You are responsible for:
• any transaction made by an Authorized User on your account.
• any transaction made by an Authorized User before they were removed from your account, even if the
transaction posts after the date of the removal request.
• any transactions made by others if an Authorized User allows them to use your account.
• fees and charges resulting from any transaction made by an Authorized User or others, if an Authorized User
allows them to use your account.

© 2020 Navy Federal NFCU 573CC (7-20)

page 3 of 3

